                    September 27, 1999

                    GEORGE A. BOETTGER
                    DISTRICT MANAGER

                    SUBJECT: Allegation that a Plant Manager in the Western
                             Area Jeopardized the Safety of USPS
                             Employees and the Public
                             (Report Number LM-LA-99-003)

                    This is our advisory report on an allegation that a plant
                    manager in the Western Area jeopardized the safety of
                    United States Postal Service (USPS) employees and the
                    public. The report also discusses our review of the district’s
                    compliance with USPS policies and procedures for
                    investigating and resolving the allegation.

                    An anonymous source submitted a complaint to the Office
                    of Inspector General (OIG) Hotline, requesting we
                    determine what actions USPS management was taking to
                    address the issue. (Project Number 99EF075LM000).

Results in Brief	   We determined that the Plant Manager jeopardized the
                    safety of USPS employees and the public. The Plant
                    Manager solicited USPS employees to purchase a pistol for
                    another employee. He brought the loaded pistol to an
                    official USPS function where he displayed it to attendees.
                    While making a speech, the Plant Manager ejected the
                    loaded clip, pointed the pistol toward a wall, and fired it,
                    igniting a cap that had been chambered into the pistol. This
                    resulted in a loud noise that startled several of the
                    attendees.

                    District management followed the USPS published zero
                    tolerance policy regarding violence and inappropriate
                    behavior in the workplace. District management properly
                    investigated the incident and the Plant Manager was
                    disciplined.




                            Restricted Information
Allegation that a Plant Manager in the Western Area                                               LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public


                                  We have no suggestions and plan no more work on this
                                  allegation. We discussed the contents of this report with
                                  management and they had no comments.

    Objectives, Scope,            In a hotline complaint to the OIG, the complainant, who
    and Methodology               wished to remain anonymous, requested that we determine
                                  what actions the District had taken to address the unsafe
                                  behavior of a Plant Manager. Specifically, the complainant
                                  alleged that a Plant Manager brought a loaded pistol to an
                                  official USPS function and intentionally discharged it in the
                                  presence of USPS employees and the public.1

                                  The OIG normally does not review individual labor-
                                  management disputes, particularly when other formal
                                  avenues of resolution exist, such as contractual grievance-
                                  arbitration procedures and the Equal Employment
                                  Opportunity process. However, we will undertake such
                                  reviews when the allegations pertain to violence in the
                                  workplace.

                                  Our objectives were to determine whether: (1) the Plant
                                  Manager acted in an unsafe manner, and (2) management
                                  responded in accordance with established policies and
                                  procedures.

                                  We interviewed the District’s Senior Labor Relations
                                  Specialist and a Postal Inspector. We reviewed documents
                                  provided by the OIG Hotline office and the District and
                                  Western Area Labor Relations offices. The documents
                                  provided included disciplinary action taken against the Plant
                                  Manager and a settlement agreement between the Plant
                                  Manager and the USPS.

                                  We also reviewed the USPS Joint Statement on Violence
                                  and Behavior in the Workplace, Threat Assessment Team
                                  Guide, Publication 108, and Poster 158, “Possession of
                                  Firearms and Other Dangerous Weapons on Postal
                                  Property Is Prohibited By Law.”

                                  This review was conducted from December 1998 through
                                  September 1999 in accordance with the President’s Council
                                  on Integrity and Efficiency, Quality Standards for
                                  Inspections.


1
 The USPS function was held at a public restaurant, and was attended by employees and their spouses. In addition,
a restaurant worker was present when the incident occurred.

                                                       2
                                            Restricted Information
Allegation that a Plant Manager in the Western Area                                                LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public




    Observations 	                We determined that the Plant Manager jeopardized the
                                  safety of USPS employees and the public. He solicited
                                  USPS employees to purchase a pistol for another
                                  employee. He brought the loaded pistol to an official USPS
                                  function and displayed it to attendees at the function. He
                                  ejected a loaded clip from the pistol, pointed the pistol
                                  toward a wall, and fired it, igniting a cap.

                                  We also determined that District management followed the
                                  published USPS zero tolerance policy regarding violence
                                  and inappropriate behavior in the workplace. District
                                  management properly investigated the incident and the
                                  Plant Manager was disciplined.2

    Allegation that the           In an October 16, 1998, hotline complaint to the OIG, the
    Plant Manager                 complainant alleged that a Plant Manager “brandished” a
    Engaged in                    loaded 9MM handgun at an official USPS function held at a
    Unacceptable                  public restaurant. The official function was a combination
    Conduct                       USPS meeting and going-away party for two departing
                                  employees. The complainant said employees and their
                                  spouses were in attendance. The complainant alleged that
                                  the loaded gun was to be given to an employee3 as a going-
                                  away gift.

                                  The complainant alleged that the evening started off with an
                                  “open bar”4 whereby attendees socialized for at least an
                                  hour. He said that dinner was served and the official USPS
                                  meeting followed. After the meeting, the gifts were given
                                  out. The complainant alleged that the Plant Manager freely
                                  displayed a loaded handgun to attendees. He then ejected
                                  a loaded clip from the gun, pointed the gun at the wall, and
                                  fired it. The complainant said that the gun had a blank in
                                  the chamber and when the gun was fired, it “scared all 30”
                                  of the people in attendance.

                                  According to the Inspector who was assigned to the case,
                                  the Inspection Service did not conduct an investigation
                                  because the incident occurred at a non-Postal facility, and
                                  the Plant Manager’s actions were not considered criminal in



2
  We are not providing the details of the discipline because a settlement agreement between the Plant Manager and
the USPS precludes such disclosure.
3
  The employee did not attend the function.
4
  According to the Senior Labor Relations Specialist, alcohol was served at the function.

                                                        3
                                             Restricted Information
Allegation that a Plant Manager in the Western Area                                                 LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public



                                  nature. The inspector added, however, that the incident
                                  was a “gross judgement error” on the part of the Plant
                                  Manager.

    USPS Response to              District management followed the published USPS zero
    Alleged Physical              tolerance policy regarding violence and inappropriate
    Assault                       behavior in the workplace. District management
                                  investigated the incident and the Plant Manager was
                                  disciplined.

                                  The Joint Statement on Violence and Behavior in the
                                  Workplace states that the Postal Service will not tolerate
                                  violence or any threats of violence by anyone at any level of
                                  the Postal Service. In addition, the USPS Threat
                                  Assessment Team Guide, Publication 108, requires that
                                  when an incident occurs, notification be made to the Human
                                  Resources Manager, the Inspection Service, Senior Labor
                                  Relations Specialist, Employee and Workplace Intervention
                                  Analyst, Medical Director, District Manager, or Lead Plant
                                  Manager. The Guide further provides that the Human
                                  Resources Manager or designee will determine whether a
                                  meeting needs to be called or whether the situation may be
                                  addressed through other Threat Assessment Team
                                  members or ad hoc resources.

                                  In this case, an anonymous source reported the incident to
                                  the Inspection Service.5 The Inspection Service determined
                                  it was not a criminal offense and reported it to the Senior
                                  Plant Manager. District management conducted an
                                  investigation and disciplinary action was taken.

                                  The District’s Senior Labor Relations Specialist told us that
                                  the Plant Manager was put on administrative leave
                                  beginning October 29, 1998,6 pending a decision from the
                                  Western Area Office as to the appropriate course of action.
                                  He said the District had conducted an investigation and that
                                  it disclosed the Plant Manager did not violate any “rules.”
                                  He said, however, that his actions were viewed as a “stupid
                                  stunt” because there was a cap chambered in the gun and
                                  the Plant Manager “shot it off.”


5
   An Inspector from the Inspection Service is a Situational Advisor to the Threat Assessment Team. The Inspector’s
responsibilities include conducting a formal investigation and preparing an investigative memorandum and submitting
it to Postal management.
6
   The Plant Manager remained on administrative leave from October 29, 1998, through January 22, 1999.

                                                        4
                                             Restricted Information
Allegation that a Plant Manager in the Western Area                                 LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public



                               On December 29, 1998, the Senior Plant Manager issued a
                               letter to the Plant Manager, advising him that it was the
                               intent of the USPS to remove him from employment. The
                               letter charged the Plant Manager with unacceptable
                               conduct, which endangered the safety and welfare of USPS
                               employees and a restaurant employee. The letter
                               addressed many of the allegations made by the
                               complainant. Specifically, it stated:

                               --“You . . . violated safety regulations by bringing a loaded
                               weapon (live ammunition) into a postal function and firing a
                               cap in that weapon.”

                               --“. . . you ejected the clip and held up the pistol to the show
                               the attendees. You then pointed the pistol toward a wall
                               and fired it, igniting the cap. This resulted in a loud noise
                               that startled several of the attendees and the restaurant
                               hostess.”

                               The letter also stated that the Plant Manager inappropriately
                               solicited USPS employees while on the clock and on USPS
                               premises, to purchase the gun for another employee. This
                               solicitation included subordinate supervisory employees.

 Management’s                  We discussed the contents of this report with management.
 Comment                       They had no comments.




                                                   5
                                        Restricted Information
Allegation that a Plant Manager in the Western Area                           LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public




                               We plan no further work on this allegation.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact me at (703) 248-2300.



                               Billy Sauls
                               Assistant Inspector General
                                 for Employee



                               cc: 	 Anthony J. Vegliante
                                     Yvonne D. Maguire
                                     Craig C. Wade
                                     John R. Gunnels
                                     Alan B. Kiel




                                                   6
                                        Restricted Information
Allegation that a Plant Manager in the Western Area              LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public




 Major Contributors to
 This Report




                                                   7
                                        Restricted Information
Allegation that a Plant Manager in the Western Area                                              LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public



                                          Report Synopsis
                                           GENERAL INFORMATION

REPORT NUMBER:                         LMLA99003               REPORT DATE:

                            Allegation that a Plant Manager in the Western Area Jeopardized the Safety of USPS
REPORT TITLE:                               Employees and the Public




EVALUATOR-IN-CHARGE:                        Chris Nicoloff          DIRECTOR:            Chris Nicoloff

                                           FINDINGS/OBSERVATION

NUMBER OF FINDING/OBSERVATIONS:                               2
NONCURRENCES: Mgmt did not agree.                             NA
(Indicate finding/observation headings and numbers)
         1.
         2.
         3.
         4.

                                  RECOMMENDATIONS/SUGGESTIONS

NUMBER OF RECOMMENDATION/SUGGESTIONS:                                     0
NONCURRENCES: Mgmt did not agree.                                         NA
(Indicate recommendation/suggestion headings and numbers)
         1.
         2.
         3.
         4.

NUMBER OF CORRECTIVE ACTIONS TAKEN DURING AUDIT:                                              NA
TOTAL FUNDS PUT TO BETTER USE:                                                                NA
TOTAL QUESTIONED COST:                                                                        NA



                                                 Restricted Information
Allegation that a Plant Manager in the Western Area                     LM-LA-99-003
 Jeopardized the Safety of USPS Employees and the Public


UNSUPPORTED COST INCLUDED IN QUESTIONED COST:                         NA

Report Summary:
Allegation that a Plant Manager in the Western Area
Jeopardized the Safety of USPS Employees and the Public

This allegation was received in correspondence provided to us by a hotline
complainant who wishes to remain anonymous.

We determined that the Plant Manager jeopardized the safety of USPS employees
and the public. The Plant Manager solicited USPS employees to purchase a
pistol for another employee. He brought the loaded pistol to an official USPS
function where he displayed it to attendees. While making a speech, the Plant
Manager ejected the loaded clip, pointed the pistol toward a wall, and fired it,
igniting a cap that had been chambered into the pistol. This resulted in a loud
noise that startled several of the attendees.

District management followed the USPS published zero tolerance policy
regarding violence and inappropriate behavior in the workplace. District
management properly investigated the incident and the Plant Manager was
disciplined.

This report contains no suggestions and requires no response from management.
(Project Number 99EF075LM000).




                                       Restricted Information
